DOE/IG-0527




          AUDIT                  IDAHO OPERATIONS OFFICE MIXED
         REPORT                 LOW-LEVEL WASTE DISPOSAL PLANS




                                            SEPTEMBER 2001




       U.S. DEPARTMENT OF ENERGY
      OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                          DEPARTMENT OF ENERGY
                            Washington, DC 20585

                               September 28, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Idaho Operations Office Mixed
                          Low-Level Waste Disposal Plans"

BACKGROUND

During the 1970s and 1980s, about 65,000 cubic meters of transuranic waste was sent to the
Idaho National Engineering and Environmental Laboratory (INEEL) for temporary storage. In
1982, the definition of transuranic waste changed and, as a result, 25,400 cubic meters of this
waste was reclassified as mixed low-level waste. At that time, mixed low-level waste was
considered "orphan waste" since it had no identified path for disposal.

To address this situation, in 1995 the Idaho Operations Office (Idaho) decided to "blend-up" its
mixed low-level waste with about 39,500 cubic meters of transuranic waste so that all 65,000
cubic meters of waste could be disposed of as transuranic waste at the Waste Isolation Pilot
Plant (WIPP). Subsequent to Idaho's decision, the Department of Energy (Department) issued a
Record of Decision in 2000, which designated the Hanford and Nevada Test Sites as disposal
sites for mixed low-level waste. The objective of our audit was to determine whether Idaho
should continue with plans to dispose of its mixed low-level waste at the WIPP.

RESULTS OF AUDIT

We found that Idaho's plans to dispose of its mixed low-level waste at WIPP were inconsistent
with the Department's waste disposal strategy. Waste volumes would be needlessly added to the
Department's repository for transuranic waste. Further, Idaho's planned actions would add about
$119 million to the cost of disposition when compared to other alternatives. Finally, should
higher-end estimates of waste volumes planned for disposal at WIPP materialize, the current
statutory limit of 175,600 cubic meters would be insufficient to meet the disposition needs of all
Departmental sites.

Even though Hanford and Nevada Test Sites were established as designated sites for mixed low-
level waste, Idaho continued with its plans and did not update and integrate its planned actions
with the Office of Environmental Management's (EM) disposal strategy. To address this
                                                 2


situation, this report includes recommendations to EM to: (1) direct Idaho to discontinue its plans
to "blend-up" mixed low-level waste with transuranic waste; and, (2) require agency field sites to
update and integrate their disposition plans with the Department's 2000 Record of Decision.

MANAGEMENT REACTION

EM agreed to examine the suitability and availability of alternative treatment processes for the
Idaho waste and agreed to integrate site disposal plans. However, during the course of the audit,
EM personnel expressed concerns that officials in the states of Washington and Nevada may take
steps to preclude the disposal of Idaho's mixed low-level waste in their jurisdictions. While we
recognize that these issues complicate the Department's decision-making process, the primary
finding emanating from this audit is that the Department needs to continue to develop and
implement a coordinated and cost-effective waste disposition program.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
IDAHO OPERATIONS OFFICE MIXED LOW-LEVEL WASTE
DISPOSAL PLANS

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Idaho Plans to Dispose of Mixed Low-Level Waste at the
               Waste Isolation Pilot Plant

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................6


               Appendices

               Scope and Methodology.............................................................8

               Related Reports .........................................................................9
OVERVIEW

INTRODUCTION AND   During the 1970s and 1980s, about 65,000 cubic meters of waste was
OBJECTIVE          sent to the Idaho National Engineering and Environmental Laboratory
                   (INEEL) for temporary storage. At the time, this waste was classified
                   as transuranic waste. In 1982, the definition of transuranic waste
                   changed resulting in 25,400 of the 65,000 cubic meters of waste being
                   reclassified as mixed low-level waste. Since there was no disposal path
                   for mixed low-level waste, the Department of Energy's (DOE) Idaho
                   Operations Office (Idaho) decided in 1995 to "blend-up" the mixed
                   low-level waste with transuranic waste so that all 65,000 cubic meters
                   of waste would be categorized as transuranic waste. The entire 65,000
                   cubic meters could then be disposed of at the Waste Isolation Pilot
                   Plant (WIPP). Idaho's mixed low-level waste constitutes about 11
                   percent of the waste volume identified for disposal at the WIPP in its
                   National Transuranic Waste Management Plan (December 2000).
                   Subsequently, the Hanford and Nevada Test Sites were designated as
                   disposal sites for DOE's mixed low-level waste.

                   The objective of our audit was to determine whether Idaho should
                   continue with plans to dispose of its mixed low-level waste at WIPP.


CONCLUSIONS AND    Idaho should not continue with plans to dispose of its mixed low-level
OBSERVATIONS       waste at WIPP because its disposal plan was not updated and integrated
                   with the Office of Environmental Management's (EM) disposal
                   strategy. If Idaho's mixed low-level waste is disposed of at WIPP, DOE
                   may spend approximately $119 million more than necessary and
                   needlessly add additional waste volumes to the WIPP facility. Instead,
                   Idaho should dispose of its 25,400 cubic meters of mixed low-level
                   waste at either Hanford or Nevada Test Sites as decided in DOE's
                   February 2000 Record of Decision.

                   During the course of the audit, personnel in EM and Idaho officials
                   expressed concern about sending mixed low-level waste to either the
                   Hanford or Nevada Test Sites. They were concerned that officials in
                   Washington and Nevada may take steps to preclude the disposal of
                   Idaho waste in their states. Further, DOE officials expressed concern
                   about costs that may be incurred if disposal paths are changed. While
                   we recognize that these problems may represent complicating factors,
                   in our opinion DOE should pursue a coordinated, and cost-effective
                   strategy for the disposal of mixed low-level waste in accordance with
                   its waste disposition policy.




Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
         The audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                      Signed
                                            Office of Inspector General




Page 2                                        Conclusions and Observations
IDAHO PLANS TO DISPOSE OF MIXED LOW-LEVEL WASTE AT THE
WASTE ISOLATION PILOT PLANT

Idaho's Waste Disposal    Idaho should not continue with plans to dispose of its mixed low-level
Plans                     waste at WIPP. Currently, Idaho plans to dispose of 25,400 cubic
                          meters of mixed low-level waste at WIPP rather than at a disposal site
                          selected by DOE to receive mixed low-level waste. Although WIPP is
                          designated for disposal of only transuranic waste, Idaho plans to blend
                          25,400 cubic meters of mixed low-level waste with 39,500 cubic meters
                          of transuranic waste1. This blended waste would then constitute
                          transuranic waste, which would require disposal at WIPP.

                          Idaho established its blending strategy in 1995, prior to DOE
                          designating a disposal path for mixed low-level waste. At the time,
                          there was some rationale for Idaho's decision because the mixed low-
                          level waste in question was previously classified as transuranic waste,
                          and mixed low-level waste had no designated path for disposal. Idaho
                          sought to establish a disposal path for the entire 65,000 cubic meters of
                          waste consistent with an agreement entered into with the State of Idaho,
                          where DOE committed to remove all of this waste from the State by
                          2018.

                          Subsequent action taken by the Office of Environmental Management
                          made it questionable for Idaho to continue with its plans. Specifically,
                          DOE issued a Record of Decision that established a disposal path for
                          mixed low-level waste at the Hanford and Nevada Test Sites. However,
                          Idaho did not revise its disposal plans to be in accordance with this
                          Decision.

DOE Guidance and Record   DOE Order 435.1, Radioactive Waste Management, requires mixed
of Decision               low-level waste to be managed and disposed of as mixed low-level
                          waste. It also requires transuranic waste to be managed and disposed of
                          as transuranic waste. Additionally, a February 2000 Record of
                          Decision for the Final Waste Management Programmatic
                          Environmental Impact Statement, established DOE's disposal path for
                          mixed low-level waste to be the Hanford and Nevada Test Sites. The
                          goal of the waste management programmatic environmental impact
                          statement was to provide an integrated, systematic approach to
                          addressing waste management issues throughout DOE. In accordance
                          with this Record of Decision, Hanford and Nevada Test Sites are
                          tentatively planning to receive mixed low-level waste beginning in
                          2002.




                          1
                              Figures for cubic meters of waste have been rounded in this report.
Page 3                                                                                    Details of Findings
Integration of Waste   Idaho's disposal plan was not integrated with the EM disposal strategy
Disposal Decisions     to dispose of mixed low-level waste at Hanford or Nevada. In fact,
                       Idaho's disposal plans contradict DOE's larger disposal strategy. In
                       May 1997, DOE was considering several sites as its preferred
                       alternative for the disposal of mixed low-level waste (including Idaho's
                       25,400 cubic meters). Then in February 2000, DOE established its
                       disposal path for mixed low-level waste at Hanford or Nevada Test
                       Sites. However, Idaho continued to pursue a strategy that was not
                       integrated with DOE's disposal strategy because there was no formal
                       mechanism to ensure that DOE sites act in accordance with the Record
                       of Decision. DOE's Office of Environmental Management informed us
                       that the Record of Decision simply made the existing mixed low-level
                       waste disposal grounds at the Hanford and Nevada sites available to
                       other DOE waste generators. We were told that there is no requirement
                       that such waste be disposed of in accordance with this Decision.

                       Additionally, Idaho's disposal plans also may have been influenced by
                       the fact that it will cost Idaho more to ship the waste to a mixed low-
                       level waste disposal site than it will to prepare it for shipment to WIPP.
                       If the mixed low-level waste were blended into transuranic waste, much
                       of the transportation and other costs would be paid for by the Carlsbad
                       Field Office rather than by Idaho. These costs were calculated to be
                       about $33.5 million.

                       In contrast to Idaho's disposal plan, the Oak Ridge National Laboratory,
                       in a recently issued Record of Decision, plans to separate transuranic
                       waste from low-level waste and dispose of the transuranic waste at
                       WIPP and the low-level waste at the Nevada Test Site. According to
                       documentation supporting the Record of Decision, Oak Ridge decided
                       to minimize the amount of transuranic waste that comes out of its
                       treatment process because of the high cost to dispose of this waste at
                       WIPP.

                       The issues relating to the coordination of environmental management
                       activities were highlighted in a General Accounting Office (GAO)
                       report issued in April 2000. In its report, GAO said that DOE's
                       decentralized management approach encourages site-level decisions
                       that could result in higher costs for other sites or for DOE as a whole.
                       That is the same problem surfaced by this report.




Page 4                                                                     Details of Findings
Cost To Dispose Of Waste   If Idaho disposes of mixed low-level waste as transuranic waste, it
                           would cost DOE millions more to execute this strategy and needlessly
                           add additional waste volumes to the WIPP facility. A cost comparison
                           of disposing mixed low-level waste at Hanford versus transuranic waste
                           at WIPP is shown in the table below. The total cost differential
                           between the two options is about $119 million.

                                                        Comparison of Costs2
                                                       (Constant Year 2000 Dollars)

                                                             WIPP             Hanford            Difference
                           Characterize & Treat $ 118,694,462 $119,862,134 $ (1,167,672)
                           Transport                       24,250,454           3,940,174         20,310,280
                           Disposal Cost                 128,143,390          28,361,155          99,782,235
                           Total Cost                   $271,088,306       $152,163,463       $ 118,924,843

                           The largest differential is the category labeled 'disposal cost.'
                           Management questioned the cost comparison for this category; how-
                           ever, the disposal cost data used in this analysis was obtained from
                           Carlsbad Field Office officials. Further, had we used comparable
                           figures used in the National Transuranic Waste Management Plan and a
                           methodology suggested by GAO the cost difference would have been
                           substantially larger. Regardless of the cost calculations, the Record of
                           Decision established the disposed path for mixed low-level waste and
                           DOE Order 435.1 established the management protocol for mixed low-
                           level waste and transuranic waste.

                           If DOE disposes of mixed low-level waste as transuranic waste, DOE
                           may needlessly add additional waste volumes to the WIPP facility. The
                           National Transuranic Waste Management Plan identified 108,000 cubic
                           meters of waste that will be sent to WIPP. Another DOE report
                           estimated that as much as 126,000 cubic meters of additional
                           transuranic waste could require disposal, but no final decision has yet
                           been made on this waste. If the higher-end estimates of transuranic
                           waste materialize, the WIPP's statutory disposal volume limits of
                           175,600 cubic meters of waste would be insufficient. Thus, DOE may
                           be faced with the task of asking the Congress and the State of New
                           Mexico to increase the amount of transuranic waste that can be
                           disposed of at WIPP.

                           2
                            Since Nevada does not have the capacity to accept all of the 25,400 cubic meters of
                           Idaho's mixed low-level waste, a cost comparison was not done for Nevada.

Page 5                                                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Secretary, Office of Environmental
                  Management:

                       1. Direct the Manager, Idaho Operations Office, to

                               a) Discontinue its plans to blend-up Idaho's mixed low-
                                  level waste with transuranic waste; and,
                               b) Update and integrate Idaho's disposal plans with the
                                  disposal path established by DOE's Record of Decision
                                  for mixed low-level waste.

                      2. Develop and implement DOE policy and procedures that
                         require field site disposal plans to be updated and integrated
                         with DOE's Record of Decision.

                      3. Require field sites to provide a written justification and cost
                         comparison if plans to dispose of mixed low-level waste
                         deviate from DOE's disposal strategy.


MANAGEMENT        DOE's Office of Environmental Management (EM) concurred with the
COMMENTS          intent of recommendation 1and agreed to implement recommendations
                  2 and 3 in conjunction with plans to address a prior Office of Inspector
                  General report on the management of low-level waste. EM stated that it
                  would undertake a review of the suitability and availability of
                  alternative treatment processes. Management pointed out that the
                  disposal of the Idaho waste at a mixed low-level waste facility will
                  require the Department to treat this waste, and officials anticipate that a
                  commercial facility will be available to perform this activity in the near
                  future. Management committed to exploring the use of this facility as
                  an alternative to its current plans to blend-up Idaho’s waste for disposal
                  at WIPP. EM, however, emphasized that it was committed to meeting
                  the milestones in the Settlement Agreement with the State of Idaho.
                  EM officials also expressed concerns that the states of Washington and
                  Nevada may take steps to preclude the disposal of Idaho’s mixed low-
                  level waste in their jurisdictions. Accordingly, until the Department
                  completes its technical and economic assessments of the suitability and
                  availability of an alternative treatment process, the Department will
                  proceed with its current treatment and disposal plans. EM further
                  indicated that the potential cost savings identified by the Office of
                  Inspector General might prove to be high.




Page 6                                               Recommendations and Comments
AUDITOR COMMENTS   Management did not agree to discontinue plans to blend-up Idaho’s
                   mixed low-level waste. However, EM’s proposed actions should
                   resolve the issues discussed if it proceeds as expeditiously as possible to
                   conduct a thorough review of alternative waste disposal options and
                   proceed with the most cost-effective alternative that meets regulatory
                   requirements. In this regard, the Office of Environmental Management
                   needs to develop a detailed action plan to facilitate implementation of
                   the audit recommendations. This plan should delineate the specific
                   steps and timeframes for evaluating alternate treatment processes and
                   updating policies and procedures requiring workplan integration with
                   the Department’s Record of Decision.




Page 7                                                Recommendations and Comments
Appendix 1
              The audit was performed from August 24, 2000 to June 22 2001, at
SCOPE
              Idaho Operation Office in Idaho Falls, Idaho; Richland Operations
              Office in Richland, Washington; Nevada Operations Office in Las
              Vegas, Nevada; Carlsbad Field Office in Carlsbad, New Mexico; and,
              Environmental Management Offices in Washington, D.C. The audit
              scope covered decisions and planning documentation from 1982
              through Fiscal Year (FY) 2000, as well as estimated life-cycle cost data
              through the year 2035.


METHODOLOGY   To accomplish the audit objective, we:

                  • Obtained and reviewed Idaho's and Office of Environmental
                    Management's disposal plans for the mixed low-level waste in
                    storage at INEEL;
                  • Reviewed applicable National Environmental Policy Act
                    documentation concerning DOE's mixed low-level waste;
                  • Reviewed Idaho's waste inventory records;
                  • Reviewed applicable Federal and DOE regulations;
                  • Reviewed prior OIG and GAO reports;
                  • Reviewed contract data and cost data relevant to our cost
                    comparison; and,
                  • Interviewed key personnel from DOE offices in Idaho,
                    Richland, Nevada, Carlsbad, and Washington, D.C.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to Idaho's planning process for disposing of
              radioactive waste. Additionally, we assessed the Government
              Performance and Results Act of 1993 and determined that there were no
              specific performance goals or standards that pertained to this audit.
              Because our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the time of our
              audit. We did not rely on information processed on automated data
              processing equipment to accomplish our audit objective. We had
              various discussions about this audit with the Office of Environmental
              Management from June to August 2001. The exit conference was
              waived.




Page 8                                                      Scope and Methodology
Appendix 2

                        RELATED OFFICE OF INSPECTOR GENERAL AND
                          GENERAL ACCOUNTING OFFICE REPORTS


This report concerned DOE's management of waste disposal activities at the INEEL. Prior OIG and GAO
reports related to this area are listed below.

•   Utilization of the Department's Low-Level Waste Disposal Facilities, (DOE/IG-0505, May 2001). DOE
    did not adequately utilize existing low-level waste disposal capacity at the Hanford Site or Nevada Test
    Site. Instead, DOE stored large amounts of waste at generator sites or disposed of the waste at
    commercial disposal sites. This occurred because DOE did not have a comprehensive approach to
    maximize waste disposal. As a result, DOE did not realize the maximum benefit from its $30 million
    investment for low-level waste disposal operations at Hanford and Nevada and storage operations at
    generator sites.

•   Waste Treatment Plans at the Idaho National Engineering and Environmental Laboratory, (DOE/IG-
    0440, February 1999). The audit analysis concluded that waiting until the Advanced Mixed Waste
    Treatment Facility is operational to process the 3,100 cubic meters of waste would be more economical
    and reduce the environmental risks to Laboratory employees.

•   Planned Waste Shipments to the Waste Isolation Pilot Plant, (WR-B-99-06, August 1999). The
    National Transuranic Waste Management Plan was not consistent with the data at the generator sites
    and could not be used to measure target dates for shipping waste to WIPP.

•   Disposal of Low-Level and Low-Level Mixed Waste, (DOE/IG-0426, September 1998). DOE incurred
    $5.3 million in unnecessary disposal costs for low-level waste between FYs 1993 and 1996. Also, DOE
    incurred $27.1 million to build low-level waste disposal facilities at Savannah River and Oak Ridge
    even though off-site disposal would have been more cost-effective.

•   DOE's Advanced Mixed Waste Treatment Project-Uncertainties May Affect Performance, Schedule, and
    Price, (GAO/RCED-00-106, April 2000). This report expressed concern over successful treatment of
    25 percent of Idaho's waste that needs to be incinerated, however, incineration is not an option at this
    time. Also, the report expressed concern that the project is beginning to fall behind the pace needed to
    meet certain interim milestones. Also, despite some opportunities to reduce the contract price, other
    uncertainties make it likely that the contract price will increase in the future.

•   Low-Level Radioactive Waste: Department of Energy has Opportunities to Reduce Disposal Costs,
    (GAO/RCED-00-64, April 2000). DOE has not developed full life-cycle costs for its six waste disposal
    facilities or established guidance to ensure that its managers base their disposal decisions on
    considerations of cost-effectiveness for DOE's entire program rather than on each site's annual
    budgetary interests.




Page 9                                                                                    Related Reports
                                                                               IG Report No.: DOE/IG-0527

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
